  OIG Information Digest

        March 2009
     NUREG/BR-0304
    Volume 5, Number 3                  Government Travel and
                                     Government Credit Card Misuse
                                    Travel
                                    NRC employees are encouraged to use the Government’s resources wisely. For
                                    example, try to think of ways to save the Government money before you make
                                    travel reservations. Ask yourself if taking a limousine is more cost effective than
                                    driving your own car to the airport and paying for parking. Ask yourself if it is cost
                                    effective to fly out of one airport and into a different airport on a single trip. Nor-
                                    mally, that is an additional expense for the Government. Do you fly first class?
           OIG Information Digest

                                    You may upgrade to first class only if you pay the additional expense from your
                                    personal funds. In some instances, the OIG has found that NRC employees are
                                    upgrading to deluxe cars at an additional expense to the Government. In the cur-
                                    rent economic crisis, Government travelers need to do their part to conserve.
                                    The NRC has an entire Web page devoted to NRC travel, travel regulations, Fed-
                                    eral travel regulations, use of the Government credit card, and other travel informa-
                                    tion. You can find it on the internal Web site under “travel.”

                                    Credit card
                                    NRC employees are issued a Citibank Travel card with no application fee, no an-
                                    nual fee, and no interest charges. The card is intended to save the Government
                                    the expense of travel advances and to provide employees on official travel a con-
                                    venient method of handling the expenses associated with that travel. The Govern-
                                    ment bears the expense of administering the travel card program. New applicants
                                    for the Citibank Travel Charge card must now have a credit
                                    history check to determine credit worthiness. NRC uses
                                    Fair Isaac Corporation to determine each applicant’s credit
                                    score.
USNRC




                                    When a Government employee applies for a Citibank
                                    Travel Charge Card, he or she signs an agreement with the
                                    company stating that the card will not be used for personal,
                                    family, or household purposes. The bottom line is that ac-
                                    cording to the Federal Travel Regulation, 301.51.6, Gov-
                                    ernment employees may only use their Government-issued travel card for official
                                    travel related expenses.
                                    Examples of misusing the travel card include failure to pay the account balance in
                                    full by the statement due date, even if you have not been reimbursed, as well as
                                    using it for personal use of unauthorized purchases such as:

                                    Inside this issue:
                                                                                         Special points of interest:

                                    Management Directive 14.1                       2
                                                                                         • Use of the Government Credit Card

                                    Travel Card Management Plan                    2-3   • Rules and Regulations

                                    NRC/OIG Cases on Credit Card Misuse            3-4   • NRC/OIG Cases on Misuse of the Govern-
                                                                                          ment Credit Card
                                    Other Government Cases on Travel Card Misuse   4-5
                                                                                         • Other Agency Cases on Misuse of the Gov-
                                                                                          ernment Credit Card
Management Directive and Travel Management Plan
•   Clothing                         able or when the                       thiness levels provided by ADM/
                                     traveler has been                      DFS. Applicants who agree to a
•   Automobiles (including car re-
                                     authorized to                          credit worthiness evaluation and
    pair and services)
                                     charge the ticket.                     have a FICO score of 660 or
•   Spa services                                                            higher will receive an NRC travel
                                     Travelers must
•   Theme park or sporting event                                            card with the agency standard
                                     keep in mind that
    tickets                                                                 credit limit. If the FICO score is
                                     use of the Gov-
                                                                            below 660, they will receive a
•   Medical services (including      ernment-issued travel charge
                                                                            restricted NRC travel card with a
    prescriptions)                   card for any unauthorized reason
                                                                            reduced credit limit.
                                     that would not be eligible for reim-
•   Entertainment equipment          bursement on a travel voucher          If an applicant does not grant a
    (such as televisions, stereos,   may result in disciplinary action      credit worthiness evaluation, or
    computers)                       up to and including removal.           the NRC cannot obtain a FICO
•   Membership fees                                                         score for a credit worthiness
                                                                            evaluation, the NRC will use the
•   Downloading iTunes               TRAVEL CARD MANAGE-                    financial information in the appli-
•   Cell phone charges                     MENT PLAN                        cant’s SF-86, "Questionnaire for
                                                                            National Security Positions."
•   Flowers                                    Credit Worthiness
                                                                            There may be circumstances
•   Office supplies for per-                   The Consolidated Ap-         that warrant exceptions to the
    sonal use                                  propriations Act, 2005,      policy. Cardholders should con-
                                               requires that Executive      tact the A/OPC for approval be-
Despite the numerous Yel-
                                               Branch agencies assess       fore making a purchase, particu-
low Announcements issued on the
                                    the credit worthiness of all new        larly if they are unsure. The A/
subject, and advice from senior
                                    travel card applicants prior to         POC will notate the exception
managers, some NRC employees
                                    processing their applications. An       for future reference.
are still using their Government-
                                    applicant’s Fair Isaac Corporation
issued credit card to purchase                                              Travel Card Delinquencies
                                    (FICO) score is NRC’s primary
items not reimbursable on their
                                    tool for evaluating employee            Each employee with a travel
travel vouchers.
                                    credit worthiness. An applicant         card is responsible for paying
The following pages have summa- for the Citibank card must provide          their balance in full by the state-
rized excerpts from the manage-     approval for the NRC to obtain his      ment due date (even if they
ment directive regarding travel and or her FICO score. The Travel           have not been reimbursed for
the NRC’s Travel Card Manage-       Card Project Manager (TCPM)             their travel expenses).
ment Plan.                          and Headquarters' Agency Or-
                                    ganization Program Manager (A/          30 Day Past Due Notice
Management Directive 14.1           OPC) obtain a FICO-based credit         A travel card is
Says...                             worthiness evaluation from the          deemed past due if
A card holder may use his or her    NRC Office of Administration, Di-       the cardholder fails
travel charge card only for ex-     vision of Facilities and Security       to pay the balance
penses directly related to official (ADM/DFS).                              within 30 days from
travel. This includes cash with-    ADM/DFS will assign the em-             the closing date on
drawals/travel advances through     ployee with one of four credit wor-     the billing state-
ATM’s, expenses for hotels,         thiness levels. The A/OPC will not      ment in which the change ap-
meals, and rental cars. A traveler have access to the applicant’s           peared. If the account is 30
may charge an airline ticket when   FICO score, but will assign a           days past due, the OCFO, DFS,
a Travel Management Center          credit limit to the applicant’s ac-     A/OPC will notify the employee
(TMC) representative is not avail-  count based upon the credit wor-        by email. The bank considers


Page 2                                                                                 O I G I N F O R M AT I O N D I G E S T
Management Directive and Travel Management Plan
the account delinquent if pay-            the employee, the Office of Hu-       thorized purchases. When mis-
ment has not been received 45             man Resources (HR), and the           use is detected, the employees’
calendar days from the closing            OIG. The letter will contain the      office director or regional admin-
date on the billing statement in          amount of the delinquency and         istrator is notified.
which the charge appeared.                request the employee to take
                                          immediate action.                     Depending upon how egregious
60 (or more) Day Past Due No-                                                   the misuse, or for repeat offend-
tice                                      Administrative – Disciplinary         ers, an OIG investigation may
                                          Actions                               be opened.
If payment has not been re-
ceived within 61 calendar days            Citibank provides NRC with a
from the                                  monthly report of employee            The NRC is required to report
closing                                   travel card accounts. The re-         the number of administrative or
date, the                                 ports are reviewed for delin-         disciplinary actions caused by
card-                                     quent balances, as well as delib-     travel card delinquency to Office
holder’s                                  erate misuse of the travel card       of Management and Budget.
account will                              for unauthorized purchases. If        After coordination with the OIG,
be auto-                                  misuse is suspected, it will be       and the employee's supervisor,
matically                                 referred to the OIG. The OIG          HR will determine if administra-
suspended                                 performs a bimonthly review of        tive or disciplinary action is ap-
by the bank. The DFS director             the Citibank Purchase Card as         propriate.
will send a letter to the card-           well as the Citibank Travel Card
holder’s Office Director, or Re-          for delinquencies and possible
gional Administrator, a copy to           misuse of the cards for unau-


NRC/OIG Cases on Travel Card Misuse
                                           An OIG investigation deter-                           Another OIG in-
OIG deter-
                                           mined that an employee made                           vestigation deter-
mined that an
                                           nine purchases on her NRC                             mined that an
employee
                                           Government-issued Citibank                            employee used
misused his
                                           travel card that were not asso-                       her Government-
NRC Citibank
                                           ciated with official travel. The                      issued Citibank
Government
                                           purchases totaled $902.02,           Travel Card to make 28 transac-
Visa Travel
                                           and included purchases of an         tions for personal items totaling
Card and made non-official pur-
                                           airline ticket, flowers, a meal at   $6,065.56. These charges in-
chases on 18 different occasions.
                                           a local restaurant, beauty prod-     cluded cash withdrawals, fees,
Non-official purchases included pur-
                                           ucts and services, and gaso-         flowers, and other personal
chasing airline tickets for his wife; a
                                           line. The employee entered           items that were not made in con-
rental car for personal travel while
                                           into a voluntary alternative dis-    nection with official travel. OIG
on annual leave taken in conjunc-
                                           cipline agreement                    also determined that the em-
tion with official travel; and novelty
                                           and was advised                      ployee misled her immediate
shop items, gasoline, automotive,
                                           that if misuse oc-                   supervisor by claiming that she
rental car, and Internet charges
                                           curred again, the                    made two payments to Citibank.
while not on official travel. This was
                                           employee would                       In addition, she told another
the employee’s second offense re-
                                           be disciplined fur-                  manager that the reason her
lated to misuse of the Citibank
                                           ther.                                payments had not been credited
travel card and he was suspended
                                                                                to her Citibank account was
for 14 days without pay.



O I G I N F O R M AT I O N D I G E S T                                                                        Page 3
NRC/OIG Cases on Travel Card Misuse
Citibank did not accept her
                                         purchased airline tickets, withdrew
money orders. However, OIG
                                         $3,310 in cash advances not
found that she had not submit-
                                         associated with official
ted any payments to Citibank
                                         travel, and had five other
during the times she stated.
                                         questionable purchases on
Management proposed removal
                                         her Citibank card. The em-
of this employee; however, the
                                         ployee was counseled re-
employee resigned in lieu of ter-
                                         garding her use of the credit
mination.
                                         card.

An OIG investigation revealed
that a manager made 60 per-
sonal purchases on her
NRC Government Citi-
bank Visa travel card
which totaled $6,057.54.
The manager charged
$2,966 to a music store,


Other Government Cases on Travel Card Misuse
•   A National Science Founda-               alleging that the travel card     •   An investigation was com-
    tion's (NSF) OIG investigation           program manager (a GS-15              pleted by
    revealed that the Travel Card            Supervisory Accountant) was           the Fed-
    Program Manager misused                  misusing her own travel card          eral Re-
    her own travel card and then             by making unauthorized ATM            serve
    altered official records to hide         cash withdrawals. ATM cash            Board in-
    the evidence. The manager                withdrawals are authorized only       volving
    pled guilty to a felony and              when made in connection with          allegations
    was sentenced to 20                                    official Govern-        of im-
    weekends in jail and 2                                 ment travel. Oth-       proper use
    years supervised proba-                                erwise, such with-      of a Government Travel Card
    tion, fined $1,000, and                                drawals amount to       by a Board employee. The
    permanently barred from                                personal, interest-     OIG initiated this investiga-
    Government service.                                    free loans. Their       tion in response to a referral
    The manager was re-                                    review of NSF and       from the Board that the em-
    sponsible for the daily                                Bank of America         ployee repeatedly misused
    administration of the                                  records confirmed       the card even after receiving
    Travel Card program, includ-             that the manager frequently           three warnings for using it
    ing oversight of misuse and              used the travel card to make          inappropriately for cash ad-
    recommending salary offset               purchases from local retailers        vances in the New York and
    for delinquent accounts. Fol-            and ATM withdrawals, unre-            Philadelphia areas to pay for
    lowing an audit and subse-               lated to official travel.             gambling activities at various
    quent investigative review of                                                  casinos in Atlantic City, New
    NSF travel records, the OIG                                                    Jersey. In addition, as of
    received an anonymous tip                                                      April 2008, the outstanding



O I G I N F O R M AT I O N D I G E S T                                                                     Page 4
Other Government Cases on Travel Card Misuse
balance on the employee’s                •   A former Tennessee Valley Au-         fraudulent use of a TVA
travel card account                          thority (TVA) River Operations        credit card. The former em-
was about $10,700                            employee was charged in the           ployee was charged with us-
and was nearly                               Eastern District of Tennessee         ing a TVA credit card subse-
120 days delin-                              with theft and mail fraud in an       quent to his termination from
quent. The investi-                          11-count Federal indictment.          TVA to obtain more than
gation confirmed                             The indictment charged the for-       $4,000 in
that, after receiving                        mer employee used TVA credit          services.
the three warnings,                          cards to purchase items for per-      The investi-
the employee obtained numer-                 sonal use, including color televi-    gation of a
ous unauthorized cash with-                  sions, storage sheds, and other       credit card
drawals for personal use at                  items totaling over $70,000. A        charge to a
gambling casinos. The investi-                                       break-        cosmetic
gation also confirmed that the                                       down in       company
employee had received reim-                                          internal      showed a TVA manager pur-
bursement for all official travel                                    controls in   chased several items in vio-
related expenses and that his                                        that case     lation of ethics regulations.
delinquent account was for non-                                      allowed       The manager purchased the
payment, and not the result of                                       the al-       items to give his employees.
either a dispute with the credit                                     leged mis-    He purchased them from his
card company or a delay on the               use to continue for several           wife, a consultant for the
Board’s part for not reimbursing             months before it was detected.        cosmetics company, who
the employee. The employee                                                         received a commission on
was suspended for 14 calendar            •   A former TVA Fossil Power             the sale. The TVA manager
days without pay.                            Group employee was charged in         was counseled and required
                                             the State of Alabama with the         to reimburse TVA for the
                                                                                   amount of the charges.

Any time you suspect Government Travel Card abuse or abuse of Government Travel Regulations, please
contact the Office of the Inspector General by mail, telephone, or the Web. You may request anonymity.



                                         We’re on the Web!! Click on
                                          the Internal or External Web
                                           site. Scroll to the bottom of
                                         the page. Click on Inspector
                                                                                           HOTLINE
                                          General on the left. Click on
                                         the telephone. Click on Sub-                  1-800-233-3497
             USNRC
                                            mit on-line form, type your
     Office of the Inspector
             General                        complaint, and hit submit.
                                          The OIG does not try to find                        TDD
        Mail Stop O 5E13
      11555 Rockville Pike                  out where the email came                   1-800-2702787
     Rockville, MD 20852                 from. You are always anony-
                                                       mous.


                                                                                                            Page 5
O I G I N F O R M AT I O N D I G E S T
